<html>
<title> - MEETING THE TRANSPORTATION NEEDS OF RURAL AMERICA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



                      MEETING THE TRANSPORTATION NEEDS OF 
                                    RURAL AMERICA

=======================================================================

                                (114-24)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 24, 2015

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]              


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
        
        
                                ____________
                        
        
                     U.S. GOVERNMENT PUBLISHING OFFICE       
 95-231 PDF                WASHINGTON : 2015       
          
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6f081f002f0c1a1c1b070a031f410c000241">[email&#160;protected]</a>  
            
             
             
             
             
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
TOM RICE, South Carolina             RICHARD M. NOLAN, Minnesota
MARK MEADOWS, North Carolina         ANN KIRKPATRICK, Arizona
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
ROB WOODALL, Georgia                 LOIS FRANKEL, Florida
TODD ROKITA, Indiana                 CHERI BUSTOS, Illinois
JOHN KATKO, New York                 JARED HUFFMAN, California
BRIAN BABIN, Texas                   JULIA BROWNLEY, California
CRESENT HARDY, Nevada
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York

                                  (ii)

  


                  Subcommittee on Highways and Transit

                     SAM GRAVES, Missouri, Chairman

DON YOUNG, Alaska                    ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee       Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
DUNCAN HUNTER, California            STEVE COHEN, Tennessee
ERIC A. ``RICK'' CRAWFORD, Arkansas  ALBIO SIRES, New Jersey
LOU BARLETTA, Pennsylvania           DONNA F. EDWARDS, Maryland
BLAKE FARENTHOLD, Texas              JANICE HAHN, California
BOB GIBBS, Ohio                      RICHARD M. NOLAN, Minnesota
RICHARD L. HANNA, New York           ANN KIRKPATRICK, Arizona
DANIEL WEBSTER, Florida              DINA TITUS, Nevada
JEFF DENHAM, California              SEAN PATRICK MALONEY, New York
REID J. RIBBLE, Wisconsin            ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              LOIS FRANKEL, Florida
TOM RICE, South Carolina             CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina         JARED HUFFMAN, California
SCOTT PERRY, Pennsylvania            JULIA BROWNLEY, California
RODNEY DAVIS, Illinois               MICHAEL E. CAPUANO, Massachusetts
ROB WOODALL, Georgia                 GRACE F. NAPOLITANO, California
JOHN KATKO, New York                 CORRINE BROWN, Florida
BRIAN BABIN, Texas                   DANIEL LIPINSKI, Illinois
CRESENT HARDY, Nevada                PETER A. DeFAZIO, Oregon (Ex 
RYAN A. COSTELLO, Pennsylvania       Officio)
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               WITNESSES

Hon. Paul Trombino III, P.E., Director, Iowa Department of 
  Transportation, on behalf of the American Association of State 
  Highway and Transportation Officials:

    Testimony....................................................     4
    Prepared statement...........................................    37
    Responses to questions for the record from Hon. Elizabeth H. 
      Esty, a Representative in Congress from the State of 
      Connecticut................................................    45
Hon. Bob Fox, Commissioner, Renville County, Minnesota, on behalf 
  of the National Association of Counties:

    Testimony....................................................     4
    Prepared statement...........................................    47
    Responses to questions for the record from Hon. Rodney Davis, 
      a Representative in Congress from the State of Illinois....    55
Mike Steenhoek, Executive Director, Soy Transportation Coalition:

    Testimony....................................................     4
    Prepared statement...........................................    59
Steve Woelfel, President, Jefferson Lines, on behalf of the 
  American Bus Association:

    Testimony....................................................     4
    Post-hearing expansion of remarks............................    33
    Prepared statement...........................................    63
Charles L. ``Shorty'' Whittington, President, Grammer Industries, 
  Inc., on behalf of The Fertilizer Institute:

    Testimony....................................................     4
    Prepared statement...........................................    82

                       SUBMISSIONS FOR THE RECORD

Agricultural Retailers Association, written statement of Richard 
  Gupton, Senior Vice President for Public Policy and Counsel, 
  and ``Interested Parties for Hazardous Materials Transportation 
  Priority Issues Justification''................................    85
American Association of Private Railroad Car Owners, written 
  statement of Larry Milsow, President...........................   117
Institute of Makers of Explosives, written statement of Cynthia 
  Hilton, Executive Vice President...............................   122
National Congress of American Indians, written statement.........   126
Rural County Representatives of California, written statement of 
  Paul A. Smith, Senior Legislative Advocate.....................   133
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

 
           MEETING THE TRANSPORTATION NEEDS OF RURAL AMERICA

                              ----------                              


                        WEDNESDAY, JUNE 24, 2015

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:29 p.m., in 
room 2167, Rayburn House Office Building, Hon. Sam Graves 
(Chairman of the subcommittee) presiding.
    Mr. Graves of Missouri. We will call this subcommittee 
hearing to order. And I want to say good afternoon to everybody 
attending this hearing, which is going to focus on the 
transportation needs of rural America.
    And I want to let everybody know that it is possible we may 
have a vote during this hearing. So I would ask unanimous 
consent that the subcommittee be permitted to declare a recess 
subject to the call of the chair during today's hearing. And, 
without objection, that is so ordered.
    Rural roads are rarely in the spotlight, and they generally 
don't command the attention because they don't suffer from the 
severe congestion that we see in our cities and the suburbs, 
and they are often not in the limelight for flashy ribbon 
cuttings. But rural roads and bridges are what knit our 
highways together into an interconnected national system that 
make it possible for freight to move seamlessly throughout the 
country and for tourists to enjoy road trips at low cost and 
allow other motorists to travel conveniently on short trips or 
long distances.
    Even today, 71 percent of all lane miles of public roads 
and 73 percent of all the Nation's bridges are located in the 
rural areas. In my home State of Missouri, the role of rural 
roads is even more pronounced. Eighty-two percent of the public 
roads and 81 percent of the bridges are in rural areas, and 
these roads carry 40 percent of the travel in our State.
    Missouri farmers and ranchers depend heavily on these roads 
to get their products to market domestically and 
internationally because local and rural roads often provide the 
critical last-mile connection to rail facilities, our inland 
waterways, and our ports. And they provide the infrastructure 
for the only form of public transportation most rural 
communities have, and that is local or intercity bus service.
    I think our rural roads and bridges demonstrate why we need 
a strong Federal highways program. A network of efficient, 
interconnected roads is critical to moving people and goods 
around this country.
    Also, and importantly, rural States tend to be more 
dependent on Federal highway programs because many rural roads 
are lightly traveled or used predominantly by cars and trucks 
merely passing through the State. Without the Federal program, 
rural States would not fund highway and bridge projects that 
are important to the Nation, but which are not a State or local 
priority.
    Finally, safety is a significant problem on rural roads, 
where over half of our fatalities occur. And I fully support 
MAP-21's trigger for higher investments on rural roads if the 
fatality rate increases 2 years in a row.
    I continue to work with Chairman Shuster on achieving a 
long-term surface transportation reauthorization bill that will 
provide reliable funding to all of our States. And I know the 
chairman is talking to the Ways and Means Committee, Paul Ryan, 
about that even as we speak. And while we need to pass another 
short-term extension by the end of July, I am hopeful that we 
are going to be able to pass a long-term bill later this year.
    And, in the meantime, this committee is going to continue 
to work on a bipartisan basis on the policy provisions for the 
reauthorization bill. State and local governments are very 
dependent on us to remain a strong partner in delivering 
transportation projects, providing funding certainty for the 
first time in a decade.
    I want to welcome all of our witnesses here today. I know 
some of you have traveled a long way, and I look forward to 
your testimony.
    And I now turn to Ranking Member Norton for her opening 
statement.
    Ms. Norton. Thank you, Chairman Graves, for holding this 
hearing on the transportation needs of rural America.
    I believe there is an important shared community of 
interest between rural and urban America that I think many 
Members are unaware of and I want to address in at least part 
of my opening remarks.
    Nearly three-quarters of all bridges and lane miles of 
public road are located in rural areas. One-third of all 
vehicle miles traveled in this country occur in rural areas. 
Freight traverses these roads and bridges every day as goods 
move from our Nation's ports, manufacturing centers, and 
distribution hubs, eventually to reach consumers.
    Our national parks, national forests, wildlife refuge and 
recreation areas are largely located in rural areas. These 
roads and bridges must be 100 percent funded by the Federal 
Government.
    Economic activity from these Federal lands of which I 
speak, most of them in rural areas that hold these resources, 
add significantly to local economies. In 2013, visitors to our 
national parks spent $14.6 billion in communities within 60 
miles of a park.
    One of my top priorities in this reauthorization bill is 
boosting funding for the Federal Lands Transportation Program, 
which I believe will have a disproportionately positive effect 
on rural areas, which are disproportionately dependent on these 
100 percent federally financed roads and bridges.
    MAP-21 made some significant policy changes that affect 
infrastructure in rural areas. As we will hear in testimony 
today, MAP-21 shifted funding from locally owned infrastructure 
eligible for Federal aid. Commissioner Fox's testimony cites 
that MAP-21 actually reduced funding available to locally owned 
highways and bridges by an astounding 30 percent.
    So, while I appreciate the need to focus on meeting the 
transportation needs of rural America, this Congress must move 
beyond simply talking about needs and start coming up with 
solutions. And time is running out on us. The July 31 deadline 
looms before us when highway and transit program authorizations 
expire and the Highway Trust Fund is set to fall to dangerously 
low levels. We now have just 18 days left before the deadline 
to pass an extension and find new revenues to shore up the 
trust fund.
    There is no excuse for why, yet again, we have come down to 
the wire on this. In May, Congress wasted the opportunity to 
act. Now we are running through another construction season on 
fumes. Without certainty over the future of highway 
transportation funding, States and local governments have 
slowed and delayed projects, delayed signing contracts, and 
delayed hiring workers.
    We have known for years that we need a sustainable solution 
to shore up the Highway Trust Fund. The shortfall is $92 
billion over the next 6 years just to maintain current funding 
levels. The longer we wait to fix this problem, the more 
expensive it will become to preserve our infrastructure.
    In May, when the House was asked to vote on the last 
extension, I noted that the real test will be how quickly 
Congress moves after we pass an extension to develop a funding 
plan for a long-term bill.
    The Senate has now given us a start we cannot afford to 
miss. This morning, the Senate Environment and Public Works 
Committee agreed to the highway title of a bipartisan 6-year 
surface transportation bill. The bill provides $278 billion for 
highway programs through 2021, which includes modest increases 
for core programs as well as funding for a new freight program 
and new assistance for major projects.
    We are now just 18 days away from the deadline to 
reauthorize and fund our Nation's roads, bridges, and transit 
systems. If Congress does not identify additional revenues for 
the Highway Trust Fund by July 31, the Department of 
Transportation will have to delay or deny reimbursements to 
States at the height of the construction season.
    I know that our subcommittee chairman and Chairman Shuster 
stand firm in wanting our committee to move a robust long-term 
bill. Leadership and the tax-writing committees must now reveal 
their plan to resolve this crisis so that Members on both sides 
of the aisle can consider it in the light of day before they 
are asked to pass yet another patch.
    I thank you very much, Mr. Chairman.
    Mr. Graves of Missouri. Thank you very much.
    Now I would like to welcome our panelists; we have five 
today: the Honorable Paul Trombino III, who is the director of 
the Iowa Department of Transportation. He is testifying on 
behalf of the American Association of State Highway and 
Transportation Officials. We have the Honorable Bob Fox, who is 
commissioner of Renville County, Minnesota, who is testifying 
on behalf of the National Association of Counties; Mr. Michael 
Steenhoek, who is the executive director of the Soy 
Transportation Coalition; Mr. Steven Woelfel, who is president 
of Jefferson Lines, which provides service in my district and 
in areas like Bethany, Maryville, and St. Joseph. Mr. Woelfel 
will be testifying on behalf of the American Bus Association. 
And we also have Mr. Charles ``Shorty'' Whittington, who is the 
president of Grammer Industries, Incorporated, and he is 
testifying on behalf of The Fertilizer Institute.
    I would ask unanimous consent that our witnesses' full 
statements be included in the record. And, without objection, 
that is so ordered.
    And since your entire written testimony is going to be 
included in the record, we would request that you limit 
testimony to 5 minutes.
    And, with that, we will start with Director Trombino. Thank 
you for being here.

   TESTIMONY OF HON. PAUL TROMBINO III, P.E., DIRECTOR, IOWA 
    DEPARTMENT OF TRANSPORTATION, ON BEHALF OF THE AMERICAN 
ASSOCIATION OF STATE HIGHWAY AND TRANSPORTATION OFFICIALS; HON. 
BOB FOX, COMMISSIONER, RENVILLE COUNTY, MINNESOTA, ON BEHALF OF 
THE NATIONAL ASSOCIATION OF COUNTIES; MIKE STEENHOEK, EXECUTIVE 
    DIRECTOR, SOY TRANSPORTATION COALITION; STEVE WOELFEL, 
   PRESIDENT, JEFFERSON LINES, ON BEHALF OF THE AMERICAN BUS 
ASSOCIATION; AND CHARLES L. ``SHORTY'' WHITTINGTON, PRESIDENT, 
GRAMMER INDUSTRIES, INC., ON BEHALF OF THE FERTILIZER INSTITUTE

    Mr. Trombino. Thank you. Thank you, Chairman Graves, 
Ranking Member Norton, and members of the subcommittee. Thank 
you for the opportunity to provide input on the transportation 
needs facing rural communities throughout the country.
    Again, my name is Paul Trombino. I serve as the director of 
the Iowa Department of Transportation, and I am currently the 
vice president of the American Association of State Highway and 
Transportation Officials.
    Iowa's location near the center of the country affords both 
opportunities and challenges. The State features a diverse 
range of surface transportation options, including highways, 
freight rail lines, waterways, public transit, all of which 
contribute to its economy and provide essential services to its 
citizens.
    This infrastructure is also the focus of heavy demand from 
both domestic and international traffic, creating repair and 
capacity needs throughout the system. To meet this challenge, 
we are continually making improvements while prioritizing 
safety and mobility.
    My main message this morning is to share with you the 
experience of State DOTs, including my State of Iowa. As 
traditional sponsors of transportation projects, State DOTs 
possess the unique expertise and familiarity with Federal 
statutory and regulatory requirements associated with project 
design, procurement, and construction in rural communities.
    I urge prompt action on a well-funded, long-term surface 
transportation bill that clearly reflects and serves the 
national interests in rural parts of the country as well as in 
our urban centers.
    No matter the geographic region, the simple unifying fact 
is that America needs a Federal transportation program that 
provides robust investment levels coupled with long-term 
funding stability that serves our national priorities. 
Furthermore, the Federal program should continue to provide 
States with flexibility by streamlining regulations and program 
requirements while not diminishing the percentage of funds 
distributed by formula.
    Transportation powers the creation of wealth in our Nation 
and all States, unleashing the opportunity for economic 
activity. Iowa's economy is dependent on a robust and diverse 
transportation system that moves products to the global 
marketplace. Iowa's transportation system has long provided our 
State's businesses a competitive advantage, and that remains 
true today in a global economy.
    State DOTs play a critical role in ensuring that we have a 
safe, reliable, efficient transportation network. In fact, this 
past February, my Governor, Governor Terry Branstad, signed 
into law a 10-cent increase in the State fuel tax, passed by 
Iowa's House and Senate with bipartisan support. Supported by 
the counties, business associations and organizations, groups 
like the Iowa Farm Bureau and Association of Business and 
Industry, this action will raise an estimated $215 million in 
additional resources per year to invest in our State roads and 
bridges.
    States are also actively involved in assisting transit 
service, particularly in rural areas and for seniors and 
special-needs individuals. Of the 35 public transit systems in 
Iowa, 16 serve the rural region areas of our State, making Iowa 
one of only a few States offering public transit service in 
every county.
    By its very nature, there are many challenges to providing 
adequate rural transit services that meet the growing demands 
for access to medical care, employment, education, shopping, 
and recreation. Rural regions and communities across the United 
States have urgent infrastructure needs, as economic and 
recreational demands increase.
    Given this reality, we cannot address our Nation's 21st-
century surface transportation investment needs without 
reaffirming the strong partnerships that form the bedrock of 
the national transportation program. State DOTs are using their 
inherent position between the Federal Government and local 
entities to effectively coordinate funds while working to meet 
national goals and performance standards required by MAP-21.
    My State of Iowa continues to ascertain what amongst our 
current transportation system is most affordable and how our 
agency can improve these elements to optimize our value and 
efficiency for customers and residents. Keeping Federal program 
prescription to a minimum amount will allow State DOTs to 
continue pursuing innovative approaches to meet system-specific 
challenges. Committing to these principles will continue to 
provide much-needed benefits to those in Iowa and elsewhere 
throughout the country.
    I want to thank you again for the opportunity to testify 
today, and I am happy to respond to any questions that you may 
have.
    Mr. Graves of Missouri. Thank you very much.
    Commissioner Fox.
    Mr. Fox. Thank you.
    Chairman Graves, Ranking Member Norton, and distinguished 
members of the subcommittee, thank you for holding today's 
hearing on the transportation needs of rural America and also 
for inviting me to testify on behalf of the National 
Association of Counties.
    NACo is the only association representing the Nation's 
3,069 counties, which own 39 percent of the national bridge 
inventory and 45 percent of the Nation's roads, including 28 
percent of the Federal-aid highway system. Most of these roads 
and bridges can be found in rural America, where transportation 
infrastructure serves as a lifeline for our citizens and plays 
a critical role in the movement of goods to market.
    My name is Bob Fox. I am a county commissioner in Renville 
County, Minnesota. Renville County is a rural county with a 
population of 15,000 located approximately 100 miles west of 
the Minneapolis-Saint Paul metropolitan area.
    Roughly two-thirds of the Nation's counties are considered 
rural, with a combined population of 60 million. Unfortunately, 
rural counties face a number of challenges in providing 
adequate transportation infrastructure to meet the needs of our 
communities, region, and national economy.
    Today I would like to highlight some of these challenges 
and provide recommendations for ways Congress can support rural 
America in the reauthorization of MAP-21.
    First, America's rural counties are experiencing declining 
populations, which reduce our tax base and, in turn, affect our 
ability to fund transportation projects. Counties rely on local 
revenue sources, such as property taxes and local option sales 
taxes, to make infrastructure investments. In the case of 
Renville County, most of our local funding for highways is 
derived through a local tax levy. However, most States limit 
counties' ability to raise revenue for capital projects, with 
43 States having some type of limitation on property taxes 
collected by counties.
    Second, rural counties are experiencing increasing and 
shifting demands on their transportation infrastructure. Rural 
counties' economies are often built on a foundation of 
agriculture and natural resources, industries that rely heavily 
on truck transport. In the 50 to 60 years since my county's 
infrastructure was built, there have been substantial changes 
in the agriculture sector that have resulted in high 
productivity and the use of larger and heavier machinery.
    Third, rural counties are facing rising costs for 
transportation projects. My county has seen a dramatic increase 
in the cost of projects. Just a few years ago, we would budget 
for road construction projects at less than $300,000 per mile. 
Today, the same project will cost nearly $1 million per mile.
    These problems are only compounded by the state of the 
Highway Trust Fund and short-term funding extensions. The 
longer we wait, the more damage our infrastructure sustains and 
the more expensive projects become, which rural counties simply 
cannot afford.
    As a result of the challenges I have mentioned, rural 
counties need a strong Federal partner and a surface 
transportation program that supports the needs of rural 
America. There are several ways that Congress can better 
support rural transportation.
    First, Congress should make more Federal highway dollars 
available for locally owned infrastructure. While MAP-21 made 
meaningful reforms in many areas, it unfortunately shifted 
funding away from the types of locally owned infrastructure 
that are eligible for Federal aid by an estimated 30 percent.
    Second, Congress should restore funding to bridges off the 
National Highway System. While we are grateful that Congress 
continued the set-aside for off-system bridges and urge you to 
maintain this set-aside, we are concerned over a major funding 
gap that was created for highway bridges, or on-system bridges, 
that are not on the designated National Highway System.
    And, third, Congress should better address the safety on 
high-risk rural roads in the reauthorization of MAP-21. Road 
safety is one of the greatest concerns for rural counties, with 
a fatality rate on rural roads about 2\1/2\ times higher than 
urban roads.
    And, finally, we urge Congress to increase the role of 
counties in statewide planning processes. We are keenly aware 
of the investments needed and would like to be a partner in 
addressing the mobility, safety, and economic needs of our 
communities and the infrastructure we own.
    Ultimately, the quality of rural transportation is critical 
to the vitality of our national economy. Therefore, we urge you 
to consider the unique challenges facing rural counties and the 
recommendations we have made for you today.
    Thank you again for this opportunity to testify, and I 
would be pleased to answer any questions.
    Mr. Graves of Missouri. Thank you, Commissioner Fox.
    Mr. Steenhoek.
    Mr. Steenhoek. Thank you, Mr. Chairman, Ranking Member 
Norton, and members of the subcommittee.
    I think agriculture can accurately be described as trying 
to attach a garden hose to a fire hydrant. The good news is 
that U.S. farmers are producing more and they are more 
efficient at doing so.
    And the good news is also that we have more and more people 
from more and more countries demanding what U.S. farmers are 
producing. To use the example of the soybean industry, when you 
look at a field of soybeans in the United States, you can 
assume that half of what you are looking at will be consumed 
outside this country. One-quarter alone will be consumed in 
China.
    So, while we have increased supply trying to satisfy 
increased demand, the concern is that we do not have increased 
connectivity between supply and demand, and transportation is 
that connectivity. For agriculture, it is that system of roads 
and bridges, highways and interstates, our rail infrastructure, 
our inland waterway system, and our ports. You could argue that 
agriculture has the most diverse and elongated supply chain of 
any industry in existence.
    So, since our transportation system is not keeping pace 
with increased supply and demand, you can accurately say that 
we are trying to attach a garden hose to a fire hydrant.
    One of the key areas of focus for this subcommittee is our 
Nation's system of roads, bridges, highways, and interstates. 
Much attention, and rightly so, has been devoted to exploring 
approaches to providing sufficient revenue for our surface 
transportation system.
    In my opinion, the fundamental flaw of how we try to 
finance our surface transportation system is that we have a 
fixed source of revenue trying to meet the needs of an 
escalating cost. Everyone can concede, regardless of your 
political persuasion, that the cost of building and maintaining 
roads and bridges goes up over time. Yet we have an 18.4-cent 
tax per gallon of gasoline, 24.4 cents per gallon of diesel 
fuel.
    So it may be unintentional, but it is inevitable that when 
you have such a fixed source of revenue trying to meet the 
needs of an escalating cost, funding gaps will materialize with 
time. The current estimate is that we have a $15 billion annual 
shortfall each year.
    According to research funded by the Soy Transportation 
Coalition and conducted by Indiana University, if we would have 
indexed the fuel tax in 1993, the last time the fuel tax was 
adjusted, we would have an additional $133 billion at our 
disposal to improve our transportation system.
    When it comes to transportation, predictability of funding 
is almost as important as volume of funding. The current 
approach unfortunately employed by Congress of addressing this 
long-term need via unpredictable short-term legislative actions 
is having a punitive effect on our transportation system.
    It is the hope of many that Congress will not only provide 
increased funding but also provide that funding in a multiyear 
format. To be honest, when it comes to transportation, I would 
rather have the Federal Government be predictably good than 
sporadically great.
    While more funding and more predictable funding are 
important, we need to embrace opportunities to get more out of 
the transportation system we have while also practicing better 
stewardship of the taxpayer dollars that are currently being 
deployed.
    A couple examples: We think expanding semi weight limits on 
the Federal interstate and highway system from a 5-axle, 
80,000-pound configuration to a 6-axle, 97,000-pound 
configuration would not only enhance freight movement, it would 
also have a beneficial impact on motor safety and 
infrastructure wear and tear.
    Another example: We think more widespread use of technology 
for evaluating rural bridges would allow us to better diagnosis 
the problem, reducing unnecessary closures and restrictions 
while also making taxpayer dollars stretch further.
    A final thought. I think it is healthy for policymakers and 
the broader public to ask the question, do we want our Nation 
to consume from the rest of the world, or do we want to be a 
Nation that produces for the rest of the world? And I would 
think most Americans, whether you have ever met a farmer, 
whether you have any touchpoint with agriculture, whether you 
have any knowledge of agriculture, still aspires for the United 
States to be a country that still produces and makes things.
    And I would argue that agriculture is one of those 
industries, perhaps the best example of an industry that can 
provide sustained competitive advantage not only for rural 
America but for the broader economy. But it will never become 
realized if we don't have a transportation system equal to that 
task.
    Thank you, and I look forward to questions.
    Mr. Graves of Missouri. Thank you, Mr. Steenhoek.
    Mr. Woelfel.
    Mr. Woelfel. Good afternoon, Chairman Graves, Ranking 
Member Norton, and members of the subcommittee.
    I am here today from Jefferson Lines in Minneapolis, 
Minnesota, representing the members of the American Bus 
Association. I am truly appreciative of the opportunity to 
testify on the transportation and connectivity needs of rural 
America.
    The ABA represents some 3,500 member organizations, 
encompassing the entire motorcoach group travel industry, 
including bus operators like Jefferson Lines, tour companies, 
hotels, restaurants, and destinations. In total, the motorcoach 
travel and tourism industry provided over 600 million passenger 
trips in 2013, it supported 1.4 million American jobs, and it 
produced over $175 billion in economic impact. Simply put, 
motorcoach transportation serves more communities in America 
than any other mode of transportation.
    The company that I work for, Jefferson Lines, is a 96-year-
old, third-generation company that employees over 225 people, 
and annually we serve over 600,000 passengers in 13 States 
throughout America's heartland.
    Jefferson Lines has always been a pioneer in partnering 
with States, communities, and public transit to provide rural 
connectivity. We led the way in 1980 when we developed probably 
one of the Nation's first interline transit feeder programs in 
central Iowa. And we continue to build on that success by 
expanding service through cooperative agreements, such as 
reestablishing intercity bus service from Kansas City to 
Branson, Missouri, so that today we provide service to 18 
different communities across the State of Missouri, including 
Cameron, Bethany, Maryville, and St. Joseph in northern 
Missouri. In Minnesota, we serve more than 65 rural 
communities, with approximately 90 percent of the population of 
that State being within a 25-mile radius of a Jefferson Lines 
location.
    The challenge within our industry is that these examples 
are unique rather than the norm, and if our national goals are 
to ensure intermodal connectivity, reduce taxpayer burden, and 
improve efficiency, then we need to expand the public-private 
partnership initiatives beyond mere transportation finance 
concepts and better work together to connect rather than to 
compete.
    Today, the request is that you consider the following three 
initiatives to maximize the use of tax dollars through better 
integration of public and private systems.
    First, with surface reauthorization, we ask that you 
integrate private intercity bus networks in the transportation 
planning and facility development process. Include us upfront 
in the development of transportation improvement planning. And 
if Federal dollars are applied to multimodal transportation 
facilities, those facilities should be designed and operated in 
consultation with local private bus operators in order to 
expand access and improve connectivity.
    Secondly, we would ask that you improve the access of 
intercity bus networks to airport facilities and introduce a 
new pilot program to the Essential Air Service program. 
Unfortunately, there are still too many cases where private 
carriers are prevented from connecting passengers to airports. 
In some cases, there is an outright ban on operations. On 
others, it is accomplished through the application of excessive 
fees.
    We feel a multimode approach can transform how rural 
communities access both large- and medium-hub airports since 
motorcoach transportation is generally less expensive, more 
environmentally efficient, and, in many instances, time-
competitive to Essential Air Service. So we would like the 
Essential Air Service reform to include a new pilot program 
which transforms a segment of today's EAS program into an 
Essential Transportation Program, providing motorcoach service 
connections to large- and medium-hub airports.
    Finally, the ABA requests the committee's reauthorization 
bill contain language explicitly stating that all costs of 
connecting unsubsidized intercity bus service can be used by 
States as in-kind match for section 5311(f)-supported bus 
service.
    The in-kind match program started in 2007 as a pilot 
program, and today there are 22 States that use this program to 
connect more than 400 communities. Because of its success, 
Congress permanently authorized the program in MAP-21 and 
expanded the eligible in-kind match to include all costs of the 
unsubsidized connecting intercity bus service.
    Despite this authorization by Congress and a letter from 
this committee's bipartisan leadership making clear that 
Congress intended that all costs of a connecting service be 
available as an in-kind match, unfortunately the FTA chooses to 
continue to limit the in-kind match to only capital costs. 
Therefore, further congressional action is necessary on this 
point.
    As we look towards the next surface transportation 
reauthorization, we have an opportunity to expand the 
transportation network in a very cost-effective way by 
incorporating private motorcoach operators from the very 
beginning of the planning process rather than in ad hoc and 
one-off projects and by joining the public and private networks 
together, including air service, as a way to add connectivity, 
expand service, and maximize public investment in passenger 
transportation.
    I thank you very much for the opportunity to testify before 
the committee today.
    Mr. Graves of Missouri. Thank you.
    Mr. Whittington.
    Mr. Whittington. Good afternoon, Chairman Graves, Ranking 
Member Norton, and members of the subcommittee. My name is 
Charles ``Shorty'' Whittington. I am the president of Grammer 
Industries, Incorporated. We are a leading trucking firm in the 
Midwest and the Southeast. We are headquartered in Grammer, 
Indiana.
    When I founded the company in 1968, we had a staff of 4 
people, and we have grown to over 150 employees today. We are 
among the leading trucking firms for the fertilizer industry 
specifically transporting anhydrous ammonia fertilizer. 
Anhydrous ammonia is the leading nitrogen fertilizer.
    I am proud of the employees at Grammer Industries and proud 
to serve rural America to do our part and to help feed the 
world.
    I am here today on behalf of The Fertilizer Industry, which 
is a national trade association representing the fertilizer 
industry. TFI represents companies that are engaged in all 
aspects of the fertilizer supply chain. This includes 
fertilizer manufacturers, wholesalers, distributors, brokers, 
and retailers.
    TFI's members play a key role in producing and distributing 
vital crop nutrients, such as nitrogen, phosphorous, and 
potassium. These products are used to replenish soils 
throughout the United States and elsewhere to facilitate the 
production of healthy and adequate supplies of food, fiber, and 
fuel.
    Fertilizers make it possible for farmers to grow enough 
food to feed the world's more than 7 billion people. Research 
has confirmed that 40 to 60 percent of the crop yields are 
attributed to the use of commercial fertilizers.
    The fertilizer industry depends on a safe and efficient 
transportation network to deliver its products. While 
fertilizer shippers utilize waterways and rail to move their 
products, all fertilizer shipped in the United States travels 
on the roadways at some point between the production and the 
ultimate application by the farmer.
    In 2011 and 2012, 61 million tons of fertilizer products 
were sold in the United States. The delivery of fertilizer 
products in a timely manner is critical to farmers. There is 
only a narrow window of opportunity to apply the right 
fertilizer source at the right rate at the right time and the 
right place. Limited nutrient access during key utilization 
periods reduces crop yields, which means lower production and 
potentially higher food prices for consumers.
    Grammer Industries works closely with the fertilizer 
industry, often as one of the last legs of the distribution 
network.
    In recent years, rail marketplace congestion, rising rail 
and shipping rates, and service issues have made roadways more 
important than ever. For many rural areas, the Federal highway 
system provides essential connections to terminals, warehouses, 
and intermodal hubs. This is vital to farmers and for those who 
serve them and, ultimately, the consumers who rely upon a 
stable supply of affordable food.
    The Federal highway system is one of the reasons American 
farmers are so successful in feeding the Nation and the world. 
In 2014, U.S. agricultural production accounted for $43.3 
billion of trade surplus. This doesn't happen without an 
efficient, balanced transportation network.
    Specific to roadways, efficient interstate connections are 
essential. For example, the Brent Spence Bridge crosses the 
Ohio River between Cincinnati, Ohio, and northern Kentucky, 
carrying both Interstates 75 and 71. The value of the freight 
crossing the bridge is estimated to be 3 percent of the 
Nation's gross domestic product. Maintaining the integrity of 
these types of interstate connections should be a priority.
    One issue of concern for me and many in the trucking 
industry is that, over the years, it has become increasingly 
difficult to recruit and retain commercial vehicle drivers. The 
American Trucking Associations estimates the driver shortage 
between 35,000 and 40,000 drivers annually.
    Roadway congestion is another issue. The American 
Transportation Research Institute estimates that congestion 
costs in the trucking industry were more than $9 billion in 
2013. I would encourage members of the subcommittee to focus on 
congestion, bottlenecks, pavement methodologies, all of which 
can maximize limited resources for long-term investment and 
network efficiency.
    Lastly, I would be remiss if I did not thank you, Chairman 
Graves, for all your help in clarifying the hours-of-service 
requirements for farmers and their suppliers in MAP-21. Your 
efforts on this and everything else to help the transportation 
of agricultural commodities and the agricultural exemption are 
greatly appreciated and have made a very positive difference.
    Thank you, Chairman Graves and Ranking Member Norton, for 
this subcommittee and this opportunity to testify on behalf of 
TFI.
    Mr. Graves of Missouri. Thank you, Mr. Whittington.
    And now we will move to Member questions, and we will start 
with Mr. Crawford.
    Mr. Crawford. Thank you, Mr. Chairman.
    I have a question I want to direct to two of the panelists, 
Mr. Steenhoek and Mr. Whittington.
    And I will start with you, Mr. Steenhoek.
    As you know, there is a driver shortage in rural America, 
and it has had a big impact on many companies that ship goods 
in many regions of the country. The FMCSA [Federal Motor 
Carrier Safety Administration] requires a short-haul truck 
driver that crosses State lines to be at least 21 years of age, 
even if the CDL [Commercial Driver's License] minimum age in 
two adjoining States is 18 years of age.
    For example, a 20-year-old trucker for an implement dealer 
in Missouri would not be able to deliver a tractor to an 
Arkansas farm because of those Federal rules. I live in 
Arkansas; Chairman Graves lives in Missouri. So, you know, we 
have that obstacle to overcome.
    Do you believe that a reciprocity rule between States would 
be a better policy and perhaps alleviate some of the problems 
related to those driver shortages?
    Mr. Steenhoek. Well, thank you for the question, 
Congressman.
    I think that that does make a lot of sense.
    And I think you identified one of the real dilemmas facing 
our surface transportation system. It would be convenient if 
the choices before us were more trucks or fewer trucks. Really, 
the question before us is, what degree of density or congestion 
of trucks are we going to be realizing in the future?
    And the unfortunate fact is that, whether you are bullish 
or bearish on the U.S. economy, the projected demand for 
trucking is going up over time. Our estimations show a 50-
percent increase in demand for trucking between now and the 
year 2040. So the question is, how are we going to respond to 
that?
    If you respond with the status quo, that certainly is 
available to us, but that will result in a greater density, 
which we believe will result in a higher probability of 
accidents and casualties. Or you can do things like, you know, 
some of these reciprocal arrangements that you just cited. We 
talked about expanding semi weight limits.
    The fact is supply of trucking services is not keeping pace 
with demand for trucking services, and what is going to yield? 
And what are the commonsense approaches to address it? And I 
think you just cited one of them.
    Mr. Crawford. Thank you.
    Mr. Whittington, your comments?
    Mr. Whittington. Yes. I certainly appreciate the question. 
This is a really big deal in the trucking industry today. I 
stated we are probably 40,000 drivers short today. We need 
somewhere in the neighborhood of 10,000 new drivers every day.
    The 18-year-old in the State of Indiana can drive within 
the State of Indiana, but he cannot cross the line, like in 
your situation in Arkansas or Missouri. I think that there is a 
movement afoot possibly to help develop a pilot program and a 
reciprocity with the different States. That may be a 150-, 200-
mile radius, would be a program that would be very helpful.
    The industry really has a problem in the fact that, if you 
have an 18-year-old and we got to wait until he is 21 to cross 
a State line, his opportunity for other employment is coming at 
him. And I don't know of any young man that is going to wait 3 
years to wait to drive a truck across a State line.
    So we certainly need Congress' help to do that. I think the 
insurance industry had a problem with it for a while, but I 
think with the new technology that is out there, the cameras, 
the training techniques, and just the technology that is in 
these trucks today makes it an opportunity that we can monitor 
that driver in a proper manner. But we will need help to cross 
a State line. Very good idea to do.
    Mr. Crawford. Thank you.
    And you mentioned, the technology that we have in the cabs 
of these trucks and the safety measures that have been taken, I 
think, certainly bears reconsidering this approach.
    Mr. Trombino, you are from Iowa. Maybe you would like to 
weigh in on that issue.
    Mr. Trombino. Thank you very much for the opportunity. I 
was going to mention two things.
    As I have had the opportunity to talk to the public and 
especially commercial freight movement, I always ask the 
question, what is the biggest impediment to commercial freight 
movement in the United States, much less in our State? Is it 
regulatory, or is it infrastructure? And I am not trying to say 
there are not infrastructure issues. Typically, the answer is 
it is regulatory issues. Those are a lot of challenges, the 
differences between States. And those challenges create that 
challenge for truck drivers and other things.
    One of the areas that we have been focused on in our State 
is driver training. As it stands right now, if a person is a 
resident of another State, they can't take CDL driver training 
a lot of times through a company and get their CDL license 
either in our State or the other State. They actually have to 
change their residency to do that. And that has created a huge 
challenge for us in our State because we have a lot of large 
trucking firms that are doing their own education, and then we 
are helping them do the actual testing at the end.
    And so that is one area that we would like to see 
improvement on that I think also then--the more reciprocity, 
the more movement, that you can see that we are all working 
together to get people into the system to be drivers is a key 
ingredient for us in the future.
    Mr. Crawford. Thank you.
    And, gentlemen, I appreciate all of you being here today.
    I yield back.
    Mr. Graves of Missouri. Thank you.
    Ranking Member Norton?
    Ms. Norton. Thank you, Mr. Chairman.
    And, by the way, Mr. Trombino, I have been working with the 
trucking industry on the notion of training, as well. I would 
like to see a minimum standard that all States could observe 
that would really treat this like an interstate system.
    But I notice that you, Mr. Trombino, and you, Mr. Fox, may 
have somewhat different views, because one of you, Mr. 
Trombino, represents State DOTs and Mr. Fox, counties. And 
there is an old dialogue that goes on between local--I mean, 
for that matter, cities as well, but certainly counties and 
States.
    And, Mr. Trombino, your testimony says that State DOTs have 
a strong partnership with local governments in their respective 
States. Mr. Fox, however, in his testimony, says local elected 
officials should have an elevated degree of involvement in 
decisionmaking processes.
    So I wonder, since you are both at the same table, you 
might want to comment on what improvements Congress could make 
to whatever is the planning and project selection process, 
understanding there are State priorities of course, to ensure 
that local transportation priorities have at least a fair shot 
of being funded, for example, at the county level while 
maintaining the integrity of the State decisionmaking 
authority.
    Perhaps we could get some agreement right here.
    Mr. Trombino. Thank you, Ranking Member Norton.
    The first thing I would say is, I can only speak from my 
experience, obviously, in our State, for number one. And the 
States that I work with also and the people I communicate with, 
we want to have a good working relationship. It is required for 
us to have a very good working partnership to deliver 
transportation improvement projects across our State. That 
means having a good working relationship with MPOs 
[metropolitan planning organizations], in our case a lot of 
RPAs, regional planning affiliations, and counties and local 
cities and communities.
    It is one of the things that we strive for all the time, 
because understanding their needs is a critical piece for us, 
ultimately, as stewards of the system--as I like to say, we are 
all stewards of the transportation system--and delivering the 
system that meets all of those needs.
    And one of my biggest things that I think is very important 
at the Federal level is to provide the least amount of 
prescription that is possible. In other words----
    Ms. Norton. Well, let me ask Mr. Fox, then, because I want 
to see what kind of understanding we can get.
    You know, States get the money. This is the way our country 
is structured. We are not trying to do anything different. And 
there is the allegation that the States, therefore, favor State 
roads and bridges.
    You heard Mr. Trombino. I am sure you would agree, in large 
part, with almost everything he said. Is there anything we 
should be doing here to facilitate better understanding between 
the counties and the States? Could we be helpful? Or are we 
going to leave you all to fight it out in the next bill, as 
well?
    Mr. Fox. Congresswoman, thank you for the question and your 
comments.
    We do have a good working relationship, but I think, as 
county officials, we think we can have a better working 
relationship. And that is why we asked to be at the table as we 
proceed forward.
    My discussion--and from a rural county, where I come from, 
is that I don't have the same problem as some regional center 
has, maybe, with a rush hour. I have a rural rush hour in 
October that is the biggest headache I have because I have semi 
trailers of corn, soybeans, and sugar beets. And I think, 
sometimes, at a local rural level, there are different ways to 
look at things. You know, we can put a traffic counter out, but 
that doesn't tell the whole story.
    So I think we have to have an open dialogue, open 
discussion, and we have to be at the table working together to 
spend the Federal dollars so we get the most bang for our 
dollar. And we can see, where we have spent dollars, there is 
good economic development. So we want to spend our dollars 
wisely.
    Ms. Norton. It looks like what we should do is to perhaps 
have some language that says there should be better 
communication between counties and States. Because I can see 
you have different interests but yet there is a desire on the 
part of each of you to see the problem. And I have my own 
version of the problem, or, at least, not the District, which 
is a city and a State, but most cities would say the very same 
thing.
    We don't want to instruct you. We simply want to take note 
of it and not wait until the next hearing to resolve views that 
may not be on the same page as we find them today.
    I see my time is up, Mr. Chairman, so I yield back.
    Mr. Graves of Missouri. Mr. Barletta?
    Mr. Barletta. Thank you, Mr. Chairman.
    Mr. Steenhoek, with respect to your testimony regarding the 
soybean industry's self-funded study about the benefits of 
97,000-pound single-axle trucks, I don't doubt that these 
heavier trucks would benefit your members, but at what cost to 
the public is my question.
    The U.S. Department of Transportation studied this issue 
over the past 3 years and just issued a report where the 
Department could not justify the very trucks you are asking us 
to approve. While there wasn't enough data to come up with 
national crash rates, they found shockingly higher crash rates 
as well as more brake problems in the two States that they 
studied that have these trucks today. In Idaho, for example, 
the crash rates were 99 percent higher for these trucks, and in 
Michigan the crash rates for these trucks were 400 percent 
higher.
    They also found over $2 billion in additional bridge costs, 
and that cost doesn't even include the vast network of local 
roads across the country.
    Now, in light of this evidence, would you really suggest 
that we bypass safety and bridge infrastructure to encourage 
the spread of these heavier trucks?
    Mr. Steenhoek. Congressman, thank you for the question.
    And I think it is important to underscore that, when I had 
a discussion with my board of directors--and these are soybean 
farmers from throughout the United States--and we were 
discussing whether or not to even visit this issue, one of the 
common comments from my farmer directors was: The last thing we 
want to promote is something that is going to endanger 
ourselves, our kids, and our grandkids.
    The reality is, when you live in a rural State, your 
probability of encountering a semi traveling at a high rate of 
speed is exponentially greater than those who live in urban 
America. So that is the last thing that we would want to do.
    So we took an approach of, let's not come to this with a 
conclusion in search of evidence. Let's let the data speak to 
us.
    And you cited the DOT comprehensive size in truck study 
that was just recently--some of the data that was just 
released. Yes, the Department of Transportation did not--they 
said, we need more information, we need more data in order to 
make a prescriptive statement. But when you actually look 
through the statistics, I found that to be quite compelling in 
favor of expanding semi weight limits to a 6-axle, 97,000-pound 
configuration.
    One of things from a----
    Mr. Barletta. Excuse me. You did, but the United States 
Department of Transportation didn't.
    Mr. Steenhoek. I am sorry?
    Mr. Barletta. The U.S. DOT didn't find enough evidence to 
say that they could recommend that.
    Mr. Steenhoek. Right. They stated they needed more data in 
order to make a prescriptive statement, in order to make some 
kind of recommendation. Yes.
    But what meant more to me was actually saying, well, what 
does the data in the report say on these key performance 
indicators, these things that matter most to us, motor safety 
being number one. Number two is infrastructure wear and tear; 
and, number three, what kind of cost savings----
    Mr. Barletta. How about the crash test results in Idaho and 
Michigan that were 99 percent--the two States they did study 
that were 99 percent higher, and in Michigan, over 400 percent 
higher? How would you relate to those?
    Mr. Steenhoek. Well, I mean, I guess we can start arguing 
over which data you are using, which data I am using. The data 
that I have repeatedly seen over years is that motor safety is 
more a function of the number of semis, less a function of the 
weight of individual semis. And when you have that additional 
axle, you provide additional braking friction so that stopping 
distances are comparable to an 80,000-pound, 5-axle 
configuration.
    But I think this whole issue of----
    Mr. Barletta. However, the extra axle wouldn't matter on a 
structurally deficient bridge, though.
    Mr. Steenhoek. Right. And----
    Mr. Barletta. You could have 10 axles and----
    Mr. Steenhoek. And I appreciate you making that comment, 
because I think to have an intellectually honest discussion 
about this--and we highlight this in our report and in our 
marketing materials, is that the issue of bridges, that is the 
most important.
    I mean, there is widespread acknowledgment that with that 
additional axle you are reducing the imprint on the road. If 
you are comparing the 6-axle 97 to a 5-axle 80, it is about 35 
pounds less on a road. Bridges, they don't really care about 
the number of axles; they just care about the aggregate weight 
that they are compelled to support.
    And so we think that, if we were to proceed with this 
proposal, if it were ever to be instituted, a component of that 
should be, for those who are electing to load heavier, there 
should be a fee associated with that, and the money of which 
would be used for our bridges.
    One, I think, of the benefits is that--you know, this is 
not a hypothetical. You are citing examples; I can cite 
examples, as well. This is not a hypothetical exercise. This is 
something that we see, a lot of States, they have higher weight 
limits, and they are individual States. Some States they have 
grandfathered in prior to weight limits being frozen at that 
80,000 pounds. And we can look at other countries, and we can 
point to see is it actually working or not. We think the 
evidence is compelling in support of it.
    Mr. Barletta. Mr. Fox, would you be concerned about 
possible increases of the truck size and weight, knowing that 
they have never studied the impact on our local roads and 
bridges?
    Mr. Fox. Congressman, thank you for the question.
    Yes, we are concerned, and our biggest concern is the point 
you made about the bridges. That is the very biggest point. As 
a county, in Renville County, we do have about 10 miles of 
roads that we do allow in the wintertime 97,000 pounds, but on 
those 10 miles of roads there are no bridges. And that is for 
the sugar beet industry to move product.
    But it is a concern, especially on the bridges and 
especially as you get further out from the main roads. That is 
really where the problem comes, because a farmer wants to fill 
his truck when he leaves the field, and he might have to drive 
on a township road which is gravel before he even gets to a 
main artery. So it is a concern.
    Mr. Barletta. Thank you.
    Thank you, Mr. Chairman.
    Mr. Graves of Missouri. Ms. Johnson?
    Ms. Johnson. Thank you very much, Mr. Chairman and Ranking 
Member, for having this hearing.
    And thanks to all of the witnesses that are here.
    I am from the State of Texas and the city of Dallas. And we 
are rural, and we are urban. One depends on the other. I have 
all urban in my district, but I do have six interstates that 
come through my district, and I think that we probably 
experience every possible transportation issue there could be.
    But I want to know from you, what is more important than 
reauthorizing a highway bill?
    Mr. Fox. Congresswoman, thank you for the question.
    The most important thing I see with the authorization is 
that we have certainty and we can start planning for the next 3 
to 5 years.
    And on top of that is economic development. If we have good 
roads and good infrastructure, businesses will come and 
businesses will build or a business that is there will expand. 
And that is where it is for counties.
    Ms. Johnson. Thank you.
    I noticed that there were comments in some of the testimony 
about having local input from cities or entities closer to the 
issue. I am from a very large State, and we believe that, as 
well.
    I am trying to remember whose testimony it was that 
mentioned that. Can somebody speak up?
    You did?
    Mr. Woelfel. Yes, Congresswoman Johnson, I think that that 
was my testimony.
    You know, one of the things that we were asking for was to 
allow better collaboration between public and private entities 
when it comes to transportation needs. We firmly believe that, 
to expand opportunities for transportation, intermodal 
facilities are required.
    And we are not looking to compete with public entities. We 
want to expand and cooperate with public entities. And all we 
are really asking for is, perhaps, when you are doing the 
planning either for a facility or doing the planning for a 
transportation project, to include the private motorcoach 
operator upfront in the planning. And perhaps we have a private 
way to solve that issue as opposed to a public.
    Ms. Johnson. Thank you very much.
    Now, there was a mention of to expand the necessary 
flexibility that has been mentioned.
    I think, Mr. Trombino, you mentioned that in your 
testimony. Could you elaborate on that a bit?
    Mr. Trombino. Thank you. Thank you, Congresswoman.
    On flexibility, I can't say enough. For us, as we work with 
local cities, our regional areas, we want to allow--as we push 
those dollars down to the local level, the more flexibility 
that they have from an investment perspective, the key 
ingredient is the less prescription there is in the program.
    And so a lot of the good things that happened under MAP-21, 
programs were consolidated. Eligibility still remained, which, 
in our State, one of the things we did was we pushed a lot of 
those dollars to the local level to allow them to really make 
those decisions. Because, ultimately, they know what to do on 
the local system. And the more that we have flexibility to do 
that, I think, between the State and the local regional level, 
even at the local city or county level, the more that 
opportunity, where the dollars are coming, so that they have 
flexibility to meet their needs--because the needs, as I say, 
in the northwest part of the State versus the southeast part of 
the State, they have different transportation needs. But if 
those dollars come in and allow flexibility, they can meet 
whether it is a bridge issue on one side or maybe it is an 
enhancement type of transportation alternative project that 
they would like to do, rather, for their communities.
    So those types of things I think are the most important. 
And at the State level what we want to do is get those dollars 
to them and let them make that investment and get that turned 
around as quickly as possible.
    Ms. Johnson. Thank you very much, Mr. Chairman. Thank you. 
My time is up.
    Mr. Graves of Missouri. Mr. Gibbs.
    Mr. Gibbs. Thank you, Chairman.
    Thanks for being here today, panelists.
    And I appreciate the comments from the soybean industry and 
the trucking industry, Mr. Whittington.
    One point I want to make--I think you all agree with me--
why it is so important for agriculture, you know, in our global 
marketplace. And if the transportation costs are higher because 
our infrastructure can't get there, delays and times, that adds 
to the bases and lower prices for farmers. They will end up 
paying that price, the cost, and that--it really affects our 
competitiveness in the global marketplace.
    But, Mr. Trombino, I am just curious. You said that Iowa 
just raised their gas user fee by 10 cents. What does that make 
their State tax now, State user fee?
    Mr. Trombino. On the gasoline?
    Mr. Gibbs. Yeah.
    Mr. Trombino. So the gasoline goes to about 30 cents a 
gallon.
    Mr. Gibbs. OK.
    Mr. Trombino. Diesel, a couple of cents more than that, 
about 32.
    Mr. Gibbs. OK. Also, I hear from my State, Department of 
Transportation and stuff, that trying to get permits for 
construction and working through the permit process takes so 
long, you know, Fish and Wildlife and other agencies.
    You know, what are some of the obstacles you are facing 
getting new construction permits filed and approved? And how 
long is it taking?
    Mr. Trombino. From our perspective, especially as we have 
now ramped up our program, that was one of our biggest 
concerns, is the permitting process itself does take time, 
especially water quality issues. Those are usually the typical 
things that we run into.
    As you think of our State, we have a lot of tributaries, a 
lot of riverways. So it is very rare that our projects wouldn't 
touch at some point, water quality, wetland mitigation, all 
those types of issues.
    So that is one of the overriding challenges, is that now, 
with the amount of work that we are going to expand--we have 
added a little over $500 million to our 5-year program. That is 
one of our overriding issues that we are trying to sit down 
with, you know, those partner organization agencies----
    Mr. Gibbs. You are talking about water quality. You know, 
the EPA is just in the process of implementing a new expansion 
of their jurisdiction of waters to the United States. Is that a 
concern to you?
    Mr. Trombino. Yes. It is a very large concern because of 
the impact it could mean cost-wise, schedule-wise on our 
projects.
    Mr. Gibbs. And it----
    Mr. Trombino. Plus on the agricultural----
    Mr. Gibbs [continuing]. Would be a need for additional 
permits from the Army Corps?
    Mr. Trombino. Yes. So, again, all of that rolls together 
because all those permits--I sort of view them as one. 
Depending on the navigable water, Army Corps then falls into 
that, which we have a lot of major projects in that.
    Mr. Gibbs. Currently, even without that new rule in place, 
when you start a construction project and you have got to get 
through the permits and stuff, what would be the kind of 
timeframe--you know, get the permits to actually turn the first 
shovel of dirt and--you know, is it one-third of the total 
process getting the permits or is it 20 percent? What kind of 
timeframe were you looking at getting through all the----
    Mr. Trombino. You know, again, if you--a lot of those start 
early in the design process. But, overall, as you get towards 
the end, it probably takes at least 3 to 6 months for sure just 
at the end point for a construction perspective because there 
is additional planning that we have to show that we are 
actually needing the original permit that we have received.
    Mr. Gibbs. I guess I have another question for you, too, or 
maybe anybody might want to answer this question.
    When we talk about the intermodal transportation system, 
extremely important for agriculture and other industries, how 
do you envision making that intermodal system work, you know, 
between the water, rail, roads, without increasing the cost 
dramatically of new construction? Go ahead.
    Mr. Trombino. If I may, Congressman, one of the things that 
we have done and I think is very unique is supply chain design 
on our entire State. It gets to the global competitiveness that 
you raised before.
    As I like to say on the agricultural side, a 21st-century 
farm-to-market system is a road, rail, and water system because 
that is where our products are moving, much less our people, 
also.
    And we have taken a supply chain design that really exists 
in the private practice and applied that across the State so we 
can see and model and we actually know every commodity movement 
in our State from one county to another and from one county to 
another county in the United States and to 40 different 
countries.
    And what that does is it really allows us to look at the 
movement of product and commodity flow, which I believe--and we 
already have some analysis that shows--we can reduce costs in 
not only the transportation investment, but actually the cost 
to businesses and the agriculture industry in moving those 
products.
    And a lot of those investments aren't the true typical 
investments that we think of in the transportation system. 
There are connectivity issues. There are freight consolidation 
issues. And those are the areas where we think we can lower the 
overall transportation cost and lower business cost overall.
    Mr. Gibbs. So I was actually tracking what, say, 
agricultural commodities are leaving the State and how to get 
to the best place with intermodal connections.
    Mr. Trombino. Absolutely. And that is exactly what we have 
done and what we are--we are actually working with eight 
companies right now where we are doing supply chain design for 
them because we think, in the end, we can lower their 
transportation costs and make the right improvements in the 
system that shows a real rate of return. We can calculate the 
math, as I like to say, and show the rate of return.
    Mr. Gibbs. That is great. Thank you.
    And I am out of time. I yield back. Thank you, Chairman.
    Mr. Graves of Missouri. Mrs. Kirkpatrick.
    Mrs. Kirkpatrick. Thank you, Mr. Chairman and Ranking 
Member Norton.
    You will notice that I have some pictures of my district up 
on the screen. We should not forget that, along with States and 
counties, Native American tribes represent another governmental 
entity that is a part of a rural transportation system.
    The Navaho Nation spans three States: Arizona, New Mexico, 
and Utah. My district includes the Arizona portion of the 
Navaho Nation. Because of its size, the Navaho's transportation 
network provides a primary conduit for both Native Americans 
and non-Natives traveling between these three States.
    This winter Navaho children in just one school district 
alone missed 10 days of school because the dirt road that is 
their only route to school became impassable due to mud. The 
photos provided on the screen here tell the story of this 
problem far better than my words can.
    What you see here is the reality for too many 
schoolchildren on the Navaho Nation. School districts on the 
Navaho Nation often wake up to these mud emergencies and, when 
they do, they call their counties for help.
    County public works are the boots on the ground, helping 
repair and maintain tribal roads that are regional connector 
roads for both tribal members and other county residents. I 
would like to thank the counties in my district for stepping up 
and doing, quite frankly, what the Federal Government is not 
doing, even though it has primary responsibility for these 
roads.
    I am calling on this committee to join me in seeking a 
Government accountability study to help us see how the 
condition of tribal roads, especially the dirt roads, is 
hurting the ability of students in our tribal communities to 
get an education.
    Thank you, staff, for working with me on getting these 
pictures before the committee.
    My question is for you, Mr. Fox. Does NACo work with the 
tribal governments? And, if so, in what capacity?
    Mr. Fox. Yes. We work with them more at home than run 
through our association. But I believe there is a Commissioner 
White from Arizona that I know is in that area that sits on our 
rural action group, and we have discussed roads and 
transportation.
    I know back home we do not have a reservation in our 
county, but we have reservations on two corners of our 
counties. And I know that, in Minnesota, the county governments 
work with those reservations on road projects and trying to do 
projects maybe simultaneously or together.
    Mrs. Kirkpatrick. As you can see from the photos, it really 
is a dire need in these communities and puts our children's 
safety at risk.
    Again, Mr. Fox, in your testimony, you raise the important 
issue of safety of rural roads. Your testimony correctly notes 
that MAP-21 reduced requirements that encouraged States to 
invest in improving safety.
    The $90 million that was previously set aside each year for 
improvements on high-risk rural roads was eliminated and 
replaced with a new rule that only has provided about $12 
million in fiscal year 2015.
    Is this reduced level of required funding adequate, in your 
estimation?
    Mr. Fox. Can you explain further? Is the number reduced?
    Mrs. Kirkpatrick. The $90 million that was previously set 
aside for improvements was eliminated and then it was replaced 
with a new rule that provides only $12 million in 2015.
    Mr. Fox. I guess I am really not in a place to answer the 
exact number----
    Mrs. Kirkpatrick. OK. Well, let me ask another question. My 
time is running out.
    But could you elaborate on NACo's proposal to help us 
reduce deaths on rural roads?
    Mr. Fox. Well, I guess it is a partnership. Again, we go 
back to partnerships. Is it putting the rougher edges on roads 
as we place them for safety? We have put up solar LED lights, 
stop signs in certain places in our county for safety.
    There are multiple things. I think it is kind of cafeteria 
style. There are things we can do out there. We have to maybe 
learn from other States, from other pieces of the puzzle here, 
and put them together and make those rural roads safe.
    I mean, there is so many times that rural roads--people get 
on them and put the pedal down and let's go. They are not used 
to a slow-moving vehicle, you know, a tractor pulling a large 
implement that is only going 25 miles an hour and you are going 
55 or 60 miles an hour. So----
    Mrs. Kirkpatrick. My time is expired. But I appreciate the 
attention to the rural safety issues. It think it is really 
important.
    I yield back.
    Mr. Mica. Mr. Fox, you represent the counties. We worked on 
the MAP-21 legislation and tried--you try to be fair in the 
distribution between urban and rural areas. It is very 
difficult.
    Unfortunately, the divisions sometimes reflect the 
representation in Congress that is very hard to change. You 
have got urban members. They compose the bulk of the 
membership, and they run away with the bulk of the money. It is 
hard to overcome.
    I have been screwed by the Democrats, and I have been 
screwed by the Republicans in redistricting. And the last time 
they gave me a rural district of 10 previous years--which is 
kind of a good education because I had an urban corridor around 
Orlando--I was stunned that the small counties I represented 
at--getting this new perspective, when they didn't have the 
capacity to participate, not even the people to even write the 
damn grants, let alone administer the grants or compete in the 
grants--so the people who need it the most are the least likely 
to participate.
    And most of this largesse from Washington is given out on a 
political basis. It is administrative earmarks. We had a bill--
some of these guys won't remember. We had 1,199 earmarks, and 
we had an impasse.
    So it gave the Bush administration almost $1 billion in 
those earmarks, and they went behind closed doors. They took 
that in their discretionary money, and they divided it between 
five urban areas. One happened to be Mr. Oberstar's area. 
Another one, Ms. Pelosi.
    I bitched about it. So I got $62 million of the $1 billion, 
which we put on--they were into this market and tolls, and all 
of those fell through. So the urban people rule even with my 
party when we had control.
    Devolution. OK. Iowa, you like devolution? We gave you a 
lot of devolution. A lot of the States--California, Texas, 
Florida--are starting to take up their own permitting and some 
of those things that have delayed it.
    What are you doing?
    Mr. Trombino. Again, I would strongly encourage----
    Mr. Mica. Are you doing it?
    Mr. Trombino. Am I doing what?
    Mr. Mica. Devolving. We gave authority in MAP-21 for you to 
have more authority. Some States have taken it. Have you?
    Mr. Trombino. We have taken--I would say we have taken a 
little bit, not like California----
    Mr. Mica. A little bit.
    But, see, the intent was to give you the authority. You 
come here complaining about from above, and I gave you the 
authority and very few have used it. We also tried to limit--we 
tried to--well, OK. I have a good one for you.
    The guy sitting behind you worked with me on this. We 
eliminated or consolidated 50 programs. I have had the dingdong 
from DOT in here and said, ``Well, how many positions have been 
eliminated?'' Because we eliminated or consolidated 50 out of 
100-and-some.
    We started with about four--was it, Jim?--or six basic 
ones. And the dingdongs are all still there. They did not 
eliminate one position.
    I spoke about this this morning. The TIFIA program, which 
we dramatically increased, ought to be a good one to take on 
because it is a good program, not enough capacity.
    I was on a plane the other day and I said, ``What are you 
doing?''
    He says, ``I am going back to Washington.''
    ``Why?''
    He says, ``We have got a TIFIA project that I have to 
finance in the private sector in 30 to 60 days.'' He says, ``I 
have been a year coming to Washington to get the dummies to 
approve the simplest thing.''
    You guys don't complain about that?
    Mr. Trombino. I----
    Mr. Mica. Is it any better? Come on. Come on.
    Mr. Trombino. Is it better? I would actually say yes.
    Mr. Mica. OK.
    Mr. Trombino. Under MAP-21, the programs are definitely 
better.
    Mr. Mica. A lot better.
    Mr. Trombino. Yeah.
    Mr. Mica. The bus guy, you were good. They should not spend 
a damn penny of Federal money that doesn't welcome intermodal 
bus service. Right?
    This guy was very modest. They transport more people than 
any other means of transportation with no subsidy programs. 
Right? Speak the whole truth and nothing but the truth. Just 
say yes or----
    Mr. Woelfel. Well, there are some subsidy programs. But 
yes.
    Mr. Mica. Yeah. But they are--yeah.
    Mr. Woelfel. But for the most part----
    Mr. Mica. And for the most part, you are private sector.
    Mr. Woelfel. Private sector.
    Mr. Mica. You move people. You provide public 
transportation. You make a profit. Many of you are listed----
    Mr. Woelfel. Correct.
    Mr. Mica [continuing]. Or privately owned. Most of you. 
Right?
    Mr. Woelfel. Yes.
    Mr. Mica. OK. And you need to talk to some of the people on 
the other side. They don't get it. And they are supposed to be 
the champions of the poor, and those poor they leave at the end 
of the town, not in a federally subsidized intermodal center 
where somebody can connect to transportation.
    In my own city of Orlando, they moved a Megabus out to the 
end of town to an intermodal center. I got $28 million. It is a 
great earmark, but they screwed over the poor people on it, and 
Greyhound at the other end of town, people who would most 
likely use the connection to public transportation. You guys 
need to get on it and puff it up a little bit.
    Have I got any more time, Mr. Chairman?
    Mr. Graves of Missouri. No.
    Mr. Mica. Thank you. Just getting started.
    Mr. Graves of Missouri. Mr. Maloney.
    Mr. Maloney. I thank the gentlemen for your testimony.
    Thank you, Mr. Chairman.
    And thank you, Ranking Member.
    You know, I want to refocus your attention on bridges, if I 
could.
    Commissioner Fox, I was interested in your testimony in 
this regard.
    And, Director Trombino, maybe these are questions best 
directed to you.
    As I think you know, MAP-21 made significant changes to the 
way we fund bridges. Prior to MAP-21, all bridges were eligible 
for the Highway Bridge Program. That program was eliminated, 
consolidated with four other programs into two new programs, 
the National Highway Performance Program and the Surface 
Transportation Program.
    And here is where it gets a little confusing. But under the 
new rules, two-thirds of the money goes to the program that 
supports 23 percent of the bridges and one-third of the money 
goes to the Surface Transportation Program that supports 77 
percent of the bridges.
    So the question is: How is that working for the counties? 
And how is it working in States like Iowa? And I am working 
right now on bipartisan legislation that would restore funding 
eligibility to all the Nation's bridges, regardless of how they 
are designated, and would also fix some of the funding levels.
    But I am very interested in your thoughts on how the 
funding of bridge repairs is being affected by these changes in 
MAP-21 and what we should be doing about it.
    Mr. Fox. Thank you for the question, Congressman.
    On the county level, there is a problem. We have got too 
many bridges that need repair. So, first of all, we need 
reauthorization of MAP-21 and we need to find a way to fill 
some of the funding gaps that were created with the last 
program.
    In my own county, we probably put four or five bridges in 
the file waiting for a program to see if they qualify. So 
everything is shovel-ready and, if the money comes, we have got 
the project.
    And so it is to come up with a system that we can get the 
money out and get it to the counties.
    Mr. Maloney. And is that because most of those bridges are 
eligible only for funding under the Surface Transportation 
Program, where there's fewer dollars and more competition for 
those dollars?
    Mr. Fox. Competition is the big thing.
    Mr. Maloney. And is it therefore reasonable to think that, 
if we restored the eligibility of those bridges to funding 
under either program, you would get more bridges done?
    Mr. Fox. We hope that would be the scenario. Yes.
    Mr. Maloney. And, you know, I should say, in my own part of 
the world in the Hudson Valley of New York, we have, I believe, 
67 bridges that are structurally deficient. I have been to 
these bridges. I have seen firsthand the frustration of the 
local officials on this.
    What does it mean to a State like Iowa, Director Trombino?
    Mr. Trombino. Structurally deficient number of bridges, we 
have a significant amount in our State. As I like to say, we 
have 5,000 structurally deficient bridges out of 25,000. The 
vast majority are on the local system. We only have 105 on the 
entire State system.
    So this is a predominant local issue, which is why, when we 
saw MAP-21 and some of the flexibility dollars like TAP, we 
passed all of those dollars to the locals. And that gave them 
the flexibility to use those--because they could use it on 
bridges, if they chose to--so to let them set that priority.
    We thought it was very important that, in our case, the 
Transportation Commission not set that priority. Pass that to 
the locals, let them figure that out, and let them make those 
decisions.
    And we would also support--and I think AASHTO supports 
that--for those bridges that aren't eligible. Again, let's let 
the locals make that decision. They know which are the right 
ones.
    And, unfortunately--and this is the conversation we have 
had in our State--all the bridges aren't affordable. I can't 
fix the 25,000 bridges in our State. It is not affordable and, 
honestly, we are not willing to pay for that. So we have to 
figure out which are the right ones.
    At the end of the day, we think the locals are the right 
ones to make that decision on the local system. We want to work 
with them to help them make those good decisions.
    Mr. Maloney. And just so I'm clear for the record, so, 
therefore, legislation like what I am proposing, again, 
bipartisan legislation that would restore funding eligibility 
to all these bridges regardless of designation and that would 
fix them to funding levels in the NHPP program and Surface 
Transportation Program, you would support that legislation?
    Mr. Trombino. Yes.
    Mr. Maloney. And just in the closing time I have, let's say 
we do nothing on this and it is allowed to persist under the 
current formulas.
    What would the effect of that be in places likes Iowa, in 
places like other rural counties you have been discussing, Mr. 
Fox? Either one.
    Mr. Fox. I guess, if we do nothing, the problem will only 
get worse and the collapse that we witnessed in Minnesota back 
in 2005, which was in a metropolitan area, someday will happen 
in a rural area just as well.
    It might not be with rush-hour traffic and busloads, but 
there will be a semi load of grain or a large piece of 
machinery. Because it is very important that we keep our 
bridges up and our transportation put together, and that is why 
we need the reauthorization of the MAP-21.
    Mr. Trombino. What I was going to say is it is a severe 
economic impact. When you look at the local system with 
noncontiguous farming and the way the operations, especially in 
the rural area, function, those bridges become major 
impediments for them from a movement perspective, which add 
costs to the products which likely, at some point, will make 
them not competitive in a global marketplace.
    So economics is the most important issue here. And I don't 
think, from an economic perspective, we can afford for you not 
to deal with the funding and move forward with the program.
    Mr. Maloney. Thank you very much.
    Yield back, Mr. Chairman.
    Mr. Graves of Missouri. Mr. Webster.
    Mr. Webster. Thank you, Mr. Chairman.
    Mr. Trombino, the committee here has done a lot of 
discussion and hearings on public-private partnerships and 
identifying the role of P3s in the development and delivery of 
transportation systems.
    What is the Department of Transportation in Iowa--what is 
their experience with P3s? And, also, could you discuss the 
challenges or maybe even opportunities for developing and 
implementing P3s in connection with rural projects in rural 
areas?
    Mr. Trombino. From the State of Iowa, two things. The first 
thing that I would point out is, one, we are a pay-as-you-go 
State. We don't bond at all at the State level. We have no 
bonding at all on the transportation system.
    Mr. Webster. Do you have toll roads?
    Mr. Trombino. No. We have no toll roads.
    And so where we view P3s is the opportunity. A lot of times 
there is a potential, I think, for us to do some things off-
system that could really help freight consolidation. Could be 
cross-docking. Could be lots of intermodal things that really 
enable and improve the efficiency of the system ultimately. And 
those are the areas that we are specifically looking at from a 
P3 perspective.
    And I think the overriding challenge for us in our State on 
the P3 side is exactly what I talked about. We don't have 
tolling, and I don't really see tolling as an opportunity for 
us in the future because of the way our system is set out, you 
know, on a grid side. And so I don't really view that as a 
long-term solution.
    Where I do see that there is a public-private partnership 
is off what I would call a highway system and railway system is 
in the riverway system specifically. I really do view that 
there is a strong opportunity to change the operation and make 
significant improvement, which will enable significant freight 
and commodity movement up and down both the Mississippi and the 
Missouri.
    Mr. Webster. The State I am from, Florida, and I know your 
State are both one of the few States that have legislative-
approved coordinating councils especially in the area of 
transportation disadvantaged.
    Do you have any experience with transportation coordination 
and maybe some unique things that have happened when you have 
tried to do that in the rural areas?
    Mr. Trombino. Thank you.
    One of the, I think, unique things that we do in our State 
especially is we have what we call our mobility managers. We 
have mobility managers that cover all of the areas of the State 
from a regional perspective to really help connect people with 
transportation issues, especially what I would call 
transportation challenges in getting to medical appointments 
and other things like that.
    And that is really to help not only rural transit 
providers, but, also, a broader understanding of opportunities 
to connect people even from private ventures that also provide 
those types of transit services.
    So that is one of the things I would bring forward, is that 
we have a pretty broad mobility manager program that we think 
fits really well. It is one of the key linkages for us to have 
transit coverage across all of our counties.
    Mr. Webster. Does Medicaid drive most of that or----
    Mr. Trombino. That has been one of the biggest challenges, 
is that the way the Medicaid law change is is that that 
availability to use dollars for transportation through Medicaid 
is not available, as I understand it. So we have supplemented 
that through our own State dollars trying to offset----
    Mr. Webster. Just general revenue or transportation 
dollars?
    Mr. Trombino. Transportation dollars that we use for 
transit. So we have tried to do it in that way as best we can, 
but it is very limited dollars.
    Mr. Webster. Thank you very much.
    Mr. Graves of Missouri. Mr. Woodall.
    Mr. Woodall. Thank you, Mr. Chairman.
    I am thinking about something Mr. Steenhoek said when he 
began. He said, ``I would rather have the Federal Government be 
predictably good than sporadically great.'' I sometimes have 
that feeling myself around here.
    Is that a universally shared view as we are talking about 
grappling with these issues? Can I ask each? Would you rather 
us be predictably good than sporadically great?
    Mr. Trombino.
    Mr. Trombino. Yes. I would actually say consistency, from a 
program perspective, is the key ingredient. In transportation, 
I have often subscribed to this at our State level when we 
talked about it, is we just need predictable revenue over a 
long period of time because the infrastructure--it is such a 
capital level of work. The longer it is just this nice steady 
flow over time--we don't need big jumps and gaps. I think that 
is actually a bad investment strategy for the transportation 
system.
    Mr. Woodall. Mr. Fox, would you----
    Mr. Fox. I will have to answer this as myself. And I would 
say yes because I could not talk for 3,000 counties----
    Mr. Woodall. Fair enough.
    Mr. Fox [continuing]. In that question. But I agree that 
predictability is the most important piece that we have.
    Mr. Woodall. All right.
    Mr. Woelfel.
    Mr. Woelfel. I would agree. You know, we are looking from 
the private sector at long-term capital investments. And in 
order to make those investments, we would want some type of 
consistency and predictability in being able to justify.
    Mr. Woodall. Mr. Whittington.
    Mr. Whittington. I would like to think of this as a 
baseball player. There's not many baseball players that hit a 
home run every time they bat. I would rather see a good 330 
baseball hitter every day of the week.
    And if I might have one comment for Ranking Member Norton 
back there, a lot of the things that happen here that Congress 
does--they do really great things, but when it gets down to the 
State level or the county level, the interpretation changes so 
much.
    We had the same thing in the ag exemption. The Federal 
agency decided to interpret what they thought you did. And you 
did a great job, but interpretation is great----
    Mr. Woodall. Well, let's talk about that a little bit. 
Because my experience has been the opposite. I have seen a lot 
of things that Congress has done well that the administration 
has then taken and done something bad with. But, generally 
speaking, I see Congress do something that is kind of mediocre 
or pretty good, and my guys at the local level find a way to do 
something amazing.
    And I wanted to ask about that from a county perspective. I 
represent one of the most conservative counties in Georgia. 
They rejected a Federal gas tax increase. They rejected a 
transportation special local option sales tax increase. But 
they just did a $200 million bonding initiative to widen a 
major State road going through their territory because it 
matters to them.
    Six months from the day of the vote to the letting of the 
contract. It is going to be another 6 months until ground is 
broken. Twelve months from the day of the vote to widen the 
road to the day construction begins on that project. Find me a 
Federal project that is moving that quickly. They can do it and 
the taxpayer trusts them to do it in ways the taxpayer does not 
trust me to raise those same dollars.
    Given that, trying to be predictably good instead of 
sporadically great, I wonder if we don't need to narrow the 
focus of what the Federal highway system needs to be. Do we 
need interstate highways connecting America? Of course we do. 
Do we need major national freight carters to bring the products 
to market that you all have talked about? Of course we do.
    Do we need three different federally maintained highways 
between Baltimore and Washington, DC, that are never more than 
4.5 miles apart in U.S. 95, U.S. 1, the Baltimore-Washington 
Parkway? I am not sure that we do. In fact, I would argue we 
most certainly do not.
    And if we are going to be predictably good, we are going to 
have to find a way to take what has been an incredible erosion 
of the buying power of the Federal gas tax dollar and claim 
some success.
    And if that means now you have counties doing things that 
counties were not burdened by doing before, but they are 
burdened to have to do now--when you tell me 43 States have 
limitations on the kind of taxes that counties can raise, I 
tell you that, in this new transportation funding economy, we 
may have to go talk to those 43 States, that you may not get a 
free pass to say, ``I hope Washington, DC, and those Federal 
taxpayers will come through for me because I don't trust my 
counties to get it done.''
    I think we are in a different place today. I think we trust 
our counties in ways we do not trust our Federal 
representatives. I think we trust our States in ways that we do 
not trust our Federal representatives.
    And my great hope is, as we are trying to solve a problem, 
we don't try to solve the ``How do we pump more Federal dollars 
into a system that we know is not squeezing the maximum value 
out of those dollars today?''
    And my hope is we find those parts of the system that we 
are squeezing the maximum value of the dollars out, we find 
ways to give States and localities the flexibility to serve the 
constituencies that each of you represent.
    I am grateful to you all for being here, and I am grateful 
to the example that each of your industries set for us. Thank 
you.
    I yield back, Mr. Chairman.
    Mr. Graves of Missouri. Mr. Massie.
    Mr. Massie. Thank you, Mr. Chairman.
    Mr. Whittington, I appreciate that you mentioned the Brent 
Spence Bridge and the fact it carries 3 percent of our domestic 
product. For folks not familiar with that, that is I-71 and I-
75 come together and cross the same bridge. And that comes into 
my district from Ohio.
    And what troubles me--and this gets to the point Mr. 
Woodall was making--I see projects in my State and projects at 
the county level--in fact, I was a county executive--I see 
projects there, yet I see the big projects not getting done.
    And I see the small projects getting built without tolls, 
yet the big projects, the ones that are true interstate 
commerce, we are talking about, ``Well, these are the ones we 
need to toll.''
    But they wait until the need gets so great and there is so 
much pressure that they can get that kind of a revenue-
generator on a project like that, yet they are doing internal 
parkways. And I am not saying they are not important, but they 
aren't what I would say constitutes interstate commerce 
priorities.
    Mr. Whittington, how do we get the Highway Trust Fund 
focused back on interstate-type priorities with a Federal 
nexus?
    Mr. Whittington. Well, Congressman, I will try to attempt 
that in a couple of different ways.
    I think that the communication--and you have heard it here 
today--between a county official and a State official and the 
Federal officials is what is really important out there and 
what are we going to get the bang for the buck from.
    And I think that--and I agree, Congressman Woodall, with 
what you are saying in the fact that the local people can seem 
to get things done. But what does the big picture look like?
    And if we can work some kind of a system that we have the 
big picture out there and it doesn't have all kinds of redtape 
and things to do that and we see--I am from Columbus, Indiana, 
a great community where a leader 40 years ago had a vision that 
has made that town unbelievable with all of the assets that it 
has and the roadways that go through there.
    But I think we have got to get back and we have got to get 
the local people involved so that they can feel like they are 
doing something and they are respected for doing that.
    I get really mad. I talk to my friends and I say, ``You 
have got to go talk to your congressman and get something going 
that really works.''
    ``I am not going there. He won't listen to me. He doesn't 
care.''
    So we have got to reinvent the wheel on a lot of those 
kinds of things. And I think--you know, you are from the 
Cincinnati area there and northern Ohio.
    You can go all the way around the river and you can go over 
on the east side of town or you can go on the west side of 
town, but I think it is--when we talk about congestion in the 
world today and the number I threw out there at $9 billion, a 
truck today is a dollar and a half a minute.
    So every time you see a truck sitting in line out here at a 
traffic accident or the bridge is closed and he has got to go 
an extra 30 miles, you figure what that cost is, and it is 
going to ultimately cost the consumer.
    The numbers that I came to town with the other day was 
talking about, if we could sell that every dollar that the 
Government could spend on roads and bridges today will give $15 
back to that community, do you think we could get the job done? 
And I think there's numbers out there that can support those 
kinds of things.
    Mr. Massie. Well, in a lot of cases, to Mr. Woodall's 
point, I would argue that is a great incentive for the 
community to fund that project and we need to start making hard 
decisions about what are Federal projects and what are local 
projects and where that funding should come from.
    I have sponsored a bill that would--instead of causing this 
crisis every year where we have this $10 billion to $13 billion 
shortfall in the Highway Trust Fund, it would take mass 
transit, which I would say are local projects--sidewalks and 
bike paths--put them in the general fund and let the Highway 
Trust Fund be self-sustaining for projects like interstate 
bridges.
    That is not to say those other things aren't useful. But if 
there is a $15 return for every dollar invested in the 
community in mass transit, then let the community make the 
investment. But I am concerned that the commerce of this 
country, like you spoke about, is going to suffer if we don't 
get to these projects.
    And when I was a local county executive, if I could get 
State money to build a bridge or Federal money to build a 
bridge, I wanted the State money because the Federal money 
required a hydrological study, an archeological study, a 
historical study, and prevailing wages, you name it, and an 
$80,000 project quickly became a $400,000 project. That is 
another thing I think we need to look at.
    And I thank the chairman. My time is expired.
    Mr. Graves of Missouri. Mr. Hardy.
    Mr. Hardy. Thank you.
    I come from a little place called Mesquite, Nevada. It is 
about 80 miles northeast of Las Vegas. Eighty-six percent of my 
electorate is out of the urban area of Las Vegas.
    There are 17 counties in Nevada, 6 of which I have are 
rural counties, which equates to about 290 miles north to south 
by about 500 miles east to west. So I have a large rural 
district. Eighty-six percent of that is held by the Federal 
Government.
    So it is pretty easy to try to evaluate where the needs are 
in the urban areas. As a matter of fact, the State legislature, 
which I was part of the last time, created an indexing tax 
which helps fund those projects within Clark County for the 
next 3 years because we can't wait on the Federal Government 
any longer.
    I would like to ask each of you kind of a little different 
question. Being a member of the Regional Transportation 
Commission for over 14 years in the Clark County area myself 
and being a past public works director for about 7 years, I 
found that it is a lot easier to maintain than to reconstruct.
    Have any of you got the same beliefs in that----
    Mr. Fox. Congressman----
    Mr. Hardy [continuing]. As far as maintaining highways 
versus----
    Mr. Fox. Congressman, thank you for the question.
    Yes. Maintain is much simpler than starting construction 
over. But the problem is, in some of our agriculture as in the 
Midwest, we don't have wide enough shoulders on those roads for 
the farm equipment of the 21st century. So we have to make some 
decisions on which roads we are going to reconstruct and what 
roads that we just overlay.
    Mr. Hardy. The reason I ask the question is, you know, with 
that 86 percent being held by the Federal Government, it is 
hard for us to make a decision. Do we go out in the rurals and 
try to upgrade our infrastructure out there that are basically 
held by the Federal Government or the Interstate Highway 
System, NDOT, so to speak, or do we try to do things at home?
    So without having a funding bill in place, it leaves us to 
try to determine do we fix the problems within the urban 
corridors immediately because we need to make sure we have that 
economic improvement because that is what attracts economics to 
your community, is a good infrastructure, or do we let things 
fall apart, which, you know, most of that--the interstate 
system we have within Nevada goes across Federal lands, which I 
think it is the responsibility of the Federal Government to 
take care of that.
    But, on the other hand, it is one of those corridors with--
it packs all the produce back and forth from California, clear 
across the Midwest, which, in turn, comes back to the Midwest, 
to the west coast, with grains and other.
    So I guess what I am getting at is: Do you feel like we are 
failing our job? Because we have got to do something quick, in 
my opinion, because you can't plan down the road without a 
long-term spending bill.
    Yes, sir.
    Mr. Steenhoek. Well, I think you are spot on. And for local 
communities, whether it is a county or a State, they are trying 
to determine, ``What do we need to do to maintain and improve 
this system?''
    But in order to decipher what you need to do, you need to 
know what they are going to do. And ``they'' is the Federal 
Government. And so, you know, it is back to at least be 
predictable, you know, your whole point about maintaining the 
system.
    The nice thing about these assets is that they are not like 
cell phones, what you purchased 10 years ago is obsolete today. 
I mean, these are bridges and roads that, if you maintain them, 
yes, eventually, they do need to be replaced, but you can 
dramatically elongate the useful life of these assets if you do 
preventative maintenance. And in many areas of the country we 
have failed to do so.
    Mr. Hardy. Mr. Trombino, in your testimony, I think you 
were spot on with the Federal and States relationship and 
having flexibility, and I think you said that Iowa was able to 
be creative with folks that have no money, I guess, and with 
our $18 trillion of debt, we need to be creative.
    Could you kind of elaborate on some of that creativity that 
you had?
    Mr. Trombino. Yeah. A couple of things I want to say.
    The first thing was stability in funding, that the most 
important thing is for us to maintain the system. Right? 
Because we want to extend life overall.
    And I think this gets to Mr. Steenhoek and what he was 
saying. From an asset perspective, managing the system, we have 
things that are in good condition, we have things that are in 
fair condition, we have things that are in poor condition.
    If we chase the poor, we don't have enough money, and what 
will happen is the good and fair will actually turn into poor. 
And so that strategy is very important for us to focus on, the 
good and fair, extend the life of that system long term. And, 
ultimately, that will free up dollars.
    And we have shown that by just making changes in the 
amount--the types of treatments that we use to maintain the 
system, to expand it. We were able to save $270 million over 10 
years that will actually bend the life of the curve and allow 
us to use it towards those poor infrastructures. So those are 
the types of things that we are doing.
    In addition, I would say our supply chain is really the key 
ingredient because it is going to allow us to look at bridges 
differently. Just as Commissioner Fox was talking about, 
bridges with maybe 10 cars a day, but really intensive times of 
the year, well, maybe we should really treat those differently, 
and the supply chain will allow us to look at those things 
differently in the future.
    Mr. Hardy. Thank you.
    And I yield back.
    Mr. Graves of Missouri. Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    Mr. Woelfel, let me come to you. In your testimony, you 
emphasize the need to expand intermodal connectivity with rural 
transit services through more public-private partnerships 
beyond just the traditional finance concept that we think of as 
public-private partnerships.
    In your opinion, on the Federal level, what would you think 
is the greatest impediment to expanding the private sector role 
in our transit systems?
    Mr. Woelfel. I would think the biggest challenge with that 
would be the third thing that I had asked this subcommittee to 
consider, which is looking at the MAP-21 reauthorization where 
you included total cost of operating and capital to be used as 
a local match. That is 50 percent more funds that are available 
from the private sector to work with intermodal and public 
transit operators.
    And I think, by not having that extra 50 percent--you know, 
I think there is some private investment that is out there that 
is looking at it saying, ``We are not going to participate in 
that.''
    [Mr. Woelfel has provided a post-hearing expansion of his 
remarks below:]

        Motorcoach transportation provided over 600 million passenger 
        trips in 2013 and is consistently cited as the fastest growing 
        mode of intercity transportation, yet our bus operators and 
        passengers continue to be treated as second-class citizens or 
        nonexistent in terms of Federal, State and local transportation 
        planning. The lack of integration or consideration of intercity 
        bus operations in the State and local planning processes, in 
        and of itself, represents the greatest impediment to creating 
        more public-private partnerships in passenger transportation.

        A good place to start addressing this impediment would be 
        through simple policy changes to title 23. Requiring 
        consideration and inclusion of intercity bus systems in the 
        development of transportation plans by States and metropolitan 
        planning organizations, would increase the opportunities for 
        public-private collaboration.

        If our national goal is to ensure intermodal connectivity, 
        reduction of taxpayer burden and improved efficiency, then we 
        need to expand public-private partnership initiatives beyond 
        transportation finance concepts. To be clear, we are not 
        proposing to replace public transportation systems; rather, we 
        are seeking to expand opportunities, through simple changes to 
        the transportation planning structure, so we can better connect 
        public and private systems for the benefit of all 
        transportation users. By integrating public and private assets, 
        transportation planners can maximize and focus the use of tax 
        dollars, while ensuring the transportation needs of the public 
        are met.

    Mr. Meadows. So what existing regulations are there that 
prevent private carriers from entering the marketplace and 
receiving Federal transit dollars or are there any?
    Mr. Woelfel. I am not aware of any. Obviously, anytime you 
are looking at Federal funds, there are strings attached with 
it. But, overall, there are no requirements that prevent that.
    I think it is strictly--you should take a look at the total 
cost of doing that, once again, 3,500 small businesses that are 
predominantly working in this industry, looking at where to put 
their funds. Jefferson Lines and a small group of carriers 
choose to work in the fixed-route industry where we interline 
and work with public transit officials.
    But as costs go up, you know, we obviously, as private 
entities, are looking at a long-term solution at, ``How do we 
recover our investment?''
    Mr. Meadows. Well, before I finish with you, you know, if 
you go to the FMCSA Web site, you can go and they have devoted 
an impressive amount of time to resources, for safety scores, 
and, you know, a look before you book kind of trip planner. 
They have got iPhone and Android safe bus apps, all of this so 
that you can choose based on a safety score.
    Now, I don't know about you. Normally, I don't do that. But 
I wish we had somebody here testifying from them today. But the 
GAO has indicated that those scores are inaccurate.
    And so, instead of really spending time and effort to 
improve safety, they are spending time and effort marketing the 
scores that are inaccurate so that another app will get put on 
an iPhone that perhaps doesn't get used.
    So, with that being said, I mean, what would you do if we 
did away with the CSA [Compliance, Safety, Accountability] 
program? I mean, what would you replace it with?
    Mr. Woelfel. Well, I think, as private operators, you know, 
safety is always nonnegotiable. I think, as any private 
operator, you are going to operate safe. If you don't operate 
safe, you are not going to be in business.
    I don't think we need a Federal app to put out scores that 
perhaps--and you are correct. The Government Accountability 
Office has said that there's some reliability issues with that.
    You know, I think the private sector may----
    Mr. Meadows. You are being gracious. Reliability issues. 
They went a lot further than that, but go ahead.
    Mr. Woelfel. You are correct. You are correct, Congressman 
Meadows.
    But I think, as a private industry, you know, we bring a 
lot of good ideas. We know how to run a good business. We 
obviously favor--those companies that are not operating safely, 
we support them being put out of business.
    It is those companies that operate safely continuing to get 
challenged. For instance, Jefferson Lines, we get an audit 
every year. We know that we operate safely.
    Mr. Meadows. Right.
    Mr. Woelfel. We are probably not the company that is 
creating some problems. So there's other companies where you 
want to emphasize or perhaps you want to spend your resources 
to focus on safety.
    There's other ones where, you know, you want that interset. 
I think, Congressman Woodall, you had mentioned something 
about, you know, perhaps instead of three roads, you only need 
one or two roads.
    I would offer the same thing from a safety standpoint. 
Where are you going to allocate your resources to really focus 
on safety and where--you know, or don't you? If you don't have 
a problem, don't spend the money on the problem.
    Mr. Meadows. I have got other questions, but I am out of 
time. I will yield back. I will submit those for the record.
    Mr. Graves of Missouri. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    I had just one more question to ask, particularly in light 
of Mr. Hardy's question and Mrs. Kirkpatrick's question.
    Mr. Hardy said something that is quite amazing, that 86 
percent--I think that is the figure you used--of your district 
is essentially Federal land, and Mrs. Kirkpatrick talked about 
Indian Country.
    Now, both of those are funded by the Federal Government. In 
other words, it doesn't come out of States allocation.
    And I must tell you that, although I have some of these 
Federal roads in my district, I didn't even know--and I have 
been here quite a long time--I didn't even think about this 
Federal part of the surface transportation bill.
    I indicated some of the economic activity that occurs 
within 60--I think within 60 miles of a park generates $15 
billion in revenue.
    Now, a lot of that is through rural country because it is 
land adjacent to parks, which tend to be out and not really, 
you know, in the cities or in the urban areas.
    Because Congress, including me--I must tell you I paid 
almost no attention to this Federal portion--does not realize 
these agencies have separately an $11 billion backlog. And so I 
asked, ``Well, what does that amount to a year?'' Eight hundred 
fifty million dollars compared--we gave them $300 million in 
MAP-21.
    I have a bridge here. I have one bridge that the park 
service just closed two lanes of, the Memorial Bridge, that 
will cost $250 million to fix. And yet there is only $300 
million for the entire country.
    I guess I should ask first Mr. Fox because many of these 
parks are adjacent to counties not near urban areas. Have you 
looked into and do you agree that economic activities around 
these Federal lands are crucial to local communities 
surrounding these lands in terms of the revenue that was 
generated?
    I ask you that because I remember, when the Federal 
Government closed down, the State of Utah actually funded its 
parks because such an important portion of its funding came 
from people who come to these parks and come across the roads 
that I'm asking you about.
    So have you noticed and have you had occasion to note the 
economic activity that comes to your State or to the States and 
counties from this Federal land portion funded by the Federal 
Government?
    Mr. Fox. Thank you for your question, Congresswoman.
    The Federal Lands Access Program, known as FLAP--62 percent 
of the colonies have Federal lands within their jurisdiction, 
and FLAP has benefitted many counties that struggle to fund 
projects within lieu of taxes.
    But rural counties, in general, face a number of 
challenges. And I do not have the economic numbers that you are 
asking for. But the challenges require an adequate 
transportation infrastructure just to meet the needs of the 
community or that region.
    And I think, as a county official, that is our job, to work 
within our local area and our region and to work with the State 
partners and the Federal partners to provide that 
transportation infrastructure need.
    Ms. Norton. Well, you do have these issues in your counties 
and States, but they may not have obvious impact--well, unless 
you get into the situation Mrs. Kirkpatrick got into where she 
said that the children had missed 10 schooldays because the 
Federal road was just closed down.
    Unless we get more attention from the counties and the 
States that are affected, I am not sure that we are going to be 
able to do anything more for those Federal lands.
    Thank you very much, Mr. Chairman.
    Mr. Graves of Missouri. With that, we just started a vote. 
And so it is kind of perfect timing. But I would like to thank 
each of our witnesses for being here today. Your testimony is 
going to be very helpful as we move through this process.
    And, with that, I would ask unanimous consent that the 
record of today's hearing remain open until such time as our 
witnesses have provided answers to any questions that may be 
submitted to them in writing and unanimous consent that the 
record remain open for 15 days for additional comments and 
information submitted by Members or witnesses to be included in 
today's record.
    Without objection, that is so ordered.
    If no other Members have anything to add, this subcommittee 
stands adjourned. Thank you.
    [Whereupon, at 4:20 p.m., the subcommittee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
